            Tennessee Valley Authority
            Office of the Inspector General


Inspection Report


REVIEW OF THE KINGSTON
FOSSIL PLANT ASH SPILL
ROOT CAUSE STUDY AND
OBSERVATIONS ABOUT
ASH MANAGEMENT




                              2008-12283-02
                                July 23, 2009
Memorandum from the Inspector General, ET 4C-K



July 23, 2009

Tom D. Kilgore, WT 7B-K

FINAL REPORT – INSPECTION 2008-12283-02 – REVIEW OF KINGSTON FOSSIL
PLANT ASH SPILL ROOT CAUSE STUDY AND OBSERVATIONS ABOUT ASH
MANAGEMENT



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

This report will not be released to the public before 10 a.m. July 28, 2009.
Therefore, please do not distribute this report without prior approval of the
Inspector General.

If you have any questions, please contact Robert E. Martin, Assistant Inspector General,
Audits and Inspections, at (865) 633-7450. We appreciate the courtesy and cooperation
received from your staff during the inspection.




Richard W. Moore

JAL:SDB
Attachment
cc (Attachment):
      Chairman Robert M. Duncan                     Peyton T. Hairston, Jr., WT 7B-K
      Director Dennis C. Bottorff                   Janet C. Herrin, WT 10D-K
      Director Thomas C. Gilliland                  John E. Long, Jr., WT 7B-K
      Director William H. Graves                    William R. McCollum, Jr., LP 6A-C
      Director William B. Sansom                    John J. McCormick, Jr., LP 3K-C
      Director Howard A. Thrailkill                 Anda A. Ray, WT 11A-K
      Robert M. Deacy, Sr., LP 5D-C                 Emily J. Reynolds, OCP 1L-NST
      Maureen H. Dunn, WT 6A-K                      Ralph E. Rodgers, WT 6A-K
      Kimberly S. Greene, WT 7B-K                   OIG File No. 2008-12283-02
Office of the Inspector General                                                                Inspection Report



TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ................................................................. i

INTRODUCTION ................................................................................... 1

SUMMARY OF FINDINGS ................................................................. 3

FACTUAL BACKGROUND ................................................................. 8

FINDINGS ............................................................................................. 11
   TVA FAILED TO INVESTIGATE AND REPORT MANAGEMENT
   PRACTICES THAT CONTRIBUTED TO THE KINGSTON SPILL ....... 11
     Great Expectations .....................................................................................11
       No “Could Have, Would Have, Should Have” For TVA:
          Let’s Just All “Move Forward” ...............................................................12
       TVA’s Dilemma: Accountability or Litigation Strategy? ..............................15

   TVA COULD HAVE POSSIBLY PREVENTED THE
   KINGSTON SPILL IF IT HAD TAKEN RECOMMENDED
   CORRECTIVE ACTIONS .................................................................... 18

   AECOM OVEREMPHASIZED THE “SLIMES” LAYER AS
   A TRIGGER FOR THE KINGSTON SPILL, WHICH COULD
   LIMIT CORRECTIVE ACTIONS .......................................................... 21
     AECOM’s Scope and Methodology ...................................................... 22
     AECOM’s Determination of Cause .................................................... 23
     Marshall Miller’s Conclusions ........................................................... 23
     Other Marshall Miller Observations .................................................. 24

   TVA’S ENTERPRISE RISK MANAGEMENT PROGRAM
   DID NOT ADEQUATELY ADDRESS KNOWN RISKS
   ASSOCIATED WITH ASH PONDS ..................................................... 26

   THE CULTURE AT TVA’S FOSSIL FUEL PLANTS
   IMPACTED ASH MANAGEMENT ....................................................... 29
     It’s the Culture ............................................................................................29
     Culture and Ash Management ....................................................................31
     TVA Lacked Policies and Procedures for Ash Management ...................... 32
     Ash Storage Facilities were Poorly Maintained ...................................... 32
     Ash Storage Inspectors at TVA Lacked Training ................................... 34
     Organizational Changes Hampered Accountability ................................ 34
     Communication Among Organizations was Inadequate ......................... 35

Inspection 2008-12283-02
Office of the Inspector General                                           Inspection Report


      TVA Did Not Follow Engineering Best Practices .................................... 36

   TVA HAS RECENTLY ACTED TO ADDRESS CERTAIN ASH
   MANAGEMENT WEAKNESSES ......................................................... 37

RECOMMENDATIONS ..................................................................... 39


APPENDICES

A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. MARSHALL MILLER AND ASSOCIATES REPORT ON ROOT CAUSE
   ANALYSIS

C. OTHER OBSERVATIONS BY MARSHALL MILLER

D. SCOPE AND METHODOLOGY AS DEFINED IN THE ROOT CAUSE
   ANALYSIS REPORT

E. MEMORANDUM DATED JULY 20, 2009, FROM TOM KILGORE TO
   RICHARD W. MOORE




Inspection 2008-12283-02
                                                        EXECUTIVE HIGHLIGHTS
                                                                                            July 2009
                                    TVA Office of
                                    the Inspector                                           REVIEW OF KINGSTON FOSSIL PLANT ASH
                                    General                                                 SPILL ROOT CAUSE STUDY AND
                                                                                            OBSERVATIONS ABOUT ASH MANAGEMENT
On January 8, 2009, after the Kingston Spill on December 22, 2008,                          RECOMMENDED SAFETY MODIFICATIONS NOT MADE
the Environment and Public Works Committee held a hearing where
Tennessee Valley Authority (TVA) Chief Executive Officer Tom                                TVA could have possibly prevented the Kingston Spill if it had taken
Kilgore testified. The Senators were clear that they wanted answers                         recommended corrective actions. TVA was aware of “red flags” that were
to what caused the spill and what decisions of TVA contributed to the
                                                                                            raised over a long period of time signaling the need for safety modifications to
spill. TVA created the expectation that the root cause analysis that
                                                                                            TVA ash ponds. These “red flags” were raised both by TVA employees and by
was to be performed would answer those questions.
                                                                                            consultants hired by TVA. Specifically, a 1985 internal memorandum written by
On June 25, 2009, TVA presented the findings of AECOM through its                           a TVA engineer and two 2004 reports by external engineering consultants
spokesman Bill Walton and TVA Chief Operating Officer Bill                                  raised concerns about the stability of the Kingston ash storage facilities. For
McCollum at a press conference. The report and the presentation by                          reasons that are still not entirely clear, appropriate safety modifications were
Walton and McCollum produced more questions than answers.                                   not made. Marshall Miller holds that TVA could have possibly prevented the
                                                                                            Kingston Spill if it had implemented the recommended safety modifications.
We find that TVA made no effort to publicly disclose what
management practices may have contributed to the Kingston Spill.i                           AECOM OVEREMPHASIZED SLIMES LAYER
The very tightly scoped AECOM report minimizes TVA
management’s liability and provides no “lessons learned.” TVA has                           Marshall Miller concluded that AECOM’s root cause study focused
urged everyone just to “move forward” without further examination of                        disproportionately on the significance of a thin, discontinuous, soft silt and
what responsibility TVA management may have had for the disaster
                                                                                            “slimes” foundation layer as one of the most probable factors/root causes.
that occurred on December 22, 2008.
                                                                                            While Marshall Miller agrees that the four most probable root causes
Given the lack of transparency and accountability demonstrated by                           contributing to the Kingston ash pond failure identified by AECOM are
TVA in failing to properly address the root cause of the Kingston                           technically plausible, reasonably supported by the study data, and that all four
Spill, we believe that limiting the scope of AECOM's work raises                            contributed significantly to the failure, Marshall Miller concluded that factors
questions about TVA's intent. The TVA OIG hired an engineering                              other than the “slimes” layer may have been of equal or greater significance .
consultant, Marshall Miller & Associates (Marshall Miller), to perform                      Moreover, Marshall Miller suggested that in assessing the stability of its ash
a peer review of the root cause analysis. In addition the OIG,                              storage facilities, TVA should determine whether any of the four factors
reviewed prior stability analysis performed both by TVA personnel                           contributing to the failure at Kingston exist sufficiently to pose a significant risk
and by consultants hired by TVA. Based upon our review, we find                             of failure. Marshall Miller concluded that TVA’s assessment should not be
that: (1) AECOM’s focus on the “slimes” layer is misplaced; (2) TVA                         limited to just looking for the existence of the combination of all four contributing
could have possibly prevented the Kingston Spill by implementing                            factors found at Kingston.
recommended corrective measures; (3) “red flags” existed for years
that raised risks that were not captured by TVA’s Enterprise Risk
                                                                                            ASH MANAGEMENT NOT SEEN AS A RISK BY TVA
Management Program; and (4) the culture within TVA’s fossil fuel
plants resulted in coal ash being treated like garbage at a landfill
rather than treating it as a potential hazard to the public and the                         Despite internal knowledge of risks associated with ash ponds, TVA’s formal
environment.                                                                                Enterprise Risk Management process, which began in 1999, had not identified
                                                                                            ash management as a risk. In 1987, an internal memorandum stated that,
TVA’s silence on management practices that contributed to the                               “Greater amounts of ash have resulted in expansions of ash ponds. In some
Kingston Spill is compounded by the failure to report after seven                           instances the dikes that contain this water have become quite high with
months the stability analysis of TVA’s ash ponds that was to have                           increasing risk and consequences of a breech. Because of the potential for
been performed by Stantec. Given Bill Walton of AECOM’s                                     harm to both surface and groundwater from the failure of a dike, greater
statements about the potential vulnerability of TVA’s ash ponds, that                       attention and establishment of more specific inspection standards for these
analysis is critical.                                                                       dikes should be examined.” This memorandum triggered internal discussion
                                                                                            about whether the ash ponds should have been managed under TVA’s Dam
FAILURE TO REVIEW MANAGEMENT PRACTICES                                                      Safety Program, which would have required substantially more rigorous
                                                                                            inspections and engineering. Ultimately, TVA did not place the ash ponds
TVA management handled the root cause analysis in a manner that                             under its Dam Safety Program.
avoided transparency and accountability in favor of preserving a
litigation strategy. TVA elected not to publicly disclose management
practices that may have contributed to the Kingston Spill. TVA
                                                                                            LEGACY CULTURE IMPACTED ASH MANAGEMENT
management did not identify any “lessons learned” from the root
cause analysis which does not bode well for the future. The                                 Attitudes and conditions at TVA’s fossil fuel plant that emanate from a legacy
emphasis by TVA via AECOM that the unique “slimes layer” was the                            culture impacted the way TVA handled coal ash. Ash was relegated to the
triggering factor that led to the Kingston Spill is fortuitous for TVA in                   status of garbage at a landfill rather than treating it as a potential hazard to the
that TVA can claim: (1) the “slimes layer” was too difficult for TVA to                     public and the environment. Subsequent to the Kingston ash spill, TVA
have found, and therefore, TVA’s responsibility is lessened; (2) TVA                        management began trying to change the way TVA handles coal ash. History,
does not have to do anything differently in regard to their ash pond                        however, suggests that the very best policies and procedures can be
management; (3) TVA management has no culpability, and therefore,                           successfully resisted by a strong legacy culture. For TVA to be successful in
no legal liability; (4) there are no adverse implications for the utility                   avoiding another Kingston Spill, the culture must be accurately assessed,
industry since Kingston was a “one-off” event caused by a condition                         compliance with new policies and procedures must be faithfully measured with
not believed to be present anywhere else in the world; and (5) since                        appropriate metrics, and employees must be educated to think differently about
there are no “slime layers” at any other TVA facility, there is no cause                    ash management than they have over several generations. To do this we
for concern about those other ash ponds.
                                                                                            believe TVA needs to hire a dedicated cadre of professionals skilled in change
_____________________                                                                       management focused solely on driving compliance throughout the organization.
i
    This OIG report is the report that was presented to the TVA Board on July 14, 2009.
    After the OIG briefed the Board on its findings, a specially called Board meeting was
    held on July 21, 2009, with a press conference that followed. The McKenna Long and
    Aldridge report that had been commissioned by the Audit Committee of the Board in
    February of 2009 was released. TVA management acknowledged at the July 21,
    2009, meeting many of the management failures that we identify in this report. These
    admissions reflect the type of transparency and accountability for TVA that the OIG
    has pressed for some time. We applaud the TVA Board’s leadership in this matter
    and TVA management’s acknowledgement of TVA’s role in the Kingston Spill.


                                                                                                                                                                  Page i
Office of the Inspector General                                                 Inspection Report



                                  INTRODUCTION
On December 22, 2008, a major dike failure occurred on the north slopes
of the ash pond at the Tennessee Valley Authority’s (TVA) Kingston
Fossil Plant (KIF). This failure resulted in the release of approximately
5.4 million cubic yards of coal ash spilling onto adjacent land and into the
Emory River. While there was no loss of life, 26 homes were either
destroyed or damaged. Since the Kingston Spill, TVA has been
(1) assessing the geotechnical cause of the spill, (2) developing and
implementing a plan to clean up the spill and dispose of the ash, and
(3) developing long-term solutions to the issue of ash disposal at all
TVA fossil plants. TVA estimates the cost of this spill to be between
$675 million and $975 million, not including potential litigation and claims,
community recovery support, environmental remediation and long term
monitoring, final closure of the failed cell, fines and regulatory costs, and
implementation of an alternative to wet stacked fly ash storage at
Kingston.

TVA’s Chief Executive Officer (CEO), Tom Kilgore, directed the TVA
Office of General Counsel (OGC) to contract with a firm to conduct a root
cause analysis. He left the selection of the firm to the TVA OGC but did
direct that the firm was to be “one of the best.” OGC through one of their
attorneys arranged for a contract to be drawn between TVA and with
AECOM Technology Corporation (AECOM) after AECOM’s selection.
They also contracted with another consultant, Dr. Gonzalo Castro, P.E., to
review AECOM’s work. The OGC by contract and verbal instruction
severely limited the scope the work of AECOM which we address in some
detail in this report. The essence of the direction given to Bill Walton,1 the
chief consultant for AECOM, precluded AECOM from reviewing the
(1) standard of practice used by TVA or their consultants for the design
and construction of the ash ponds and dredge cells; (2) fate and transport
of potential ash and possible contaminates from the cells into the
environment; (3) design of remedial construction measures to clean and
restore the Kingston site; (4) designs and operations at other TVA wet
dredge cell disposal sites. (It should be noted that AECOM provided
limited services at a gypsum dredge cell water release at the TVA’s
Widows Creek facility on January 9, 2009.)




1
    Any opinions attributed to Bill Walton which are outside the scope of AECOM’s engagement with
    TVA do not reflect the opinion of AECOM.
Inspection 2008-12283-02                                                                  Page 1
Office of the Inspector General                                                 Inspection Report


TVA held a press conference on June 25, 2009, at which Bill Walton from
AECOM and Bill McCollum, Chief Operating Officer for TVA, briefed the
press on AECOM’s determination of the root cause of the Kingston Spill.
The AECOM report and the statements of Walton and McCollum avoided
any comment on any culpability of TVA for the Kingston Spill.

TVA hired Stantec Consulting (Stantec) to assess the condition of its ash
ponds and help restructure ash management at TVA. According to TVA
management, Stantec is assessing ash ponds under stricter engineering
and construction standards than had been applied to TVA’s ash ponds in
the past (i.e., dam safety standards, as discussed more fully later in this
report.)2 However, as of July 1, 2009, more than 6 months after the spill at
Kingston, Stantec has not completed a stability analysis of the remaining
dikes at Kingston. In fact, on July 7, 2009, we were informed by a Stantec
official that certain procedures required to finalize the stability analysis of
the Kingston dikes were not undertaken until approximately mid-June
2009.

The OIG hired an engineering consultant, Marshall Miller and Associates,
Inc. (Marshall Miller), to perform an independent peer review of the TVA
commissioned root cause analysis by AECOM and provide observations
about ash storage facility management at TVA. This report addresses:
(1) TVA’s failure to address its culpability for the Kingston Spill,3 (2) TVA’s
opportunities to implement recommended corrective measures that
possibly could have avoided the Kingston Spill, (3) the results of Marshall
Miller’s peer review, (4) TVA’s failure to adequately mitigate known risks
for ash ponds at the Kingston site, (5) TVA culture which impacted ash
management, and (6) TVA’s recent actions to address ash management
weaknesses.4



2
    Stantec provides professional consulting services in planning, engineering, architecture,
    landscape architecture, surveying, environmental sciences, project management, and project
    economics for infrastructure and facilities projects.
3
    This OIG report is the report that was presented to the TVA Board on July 14, 2009. After the
    OIG briefed the Board on its findings, a specially called Board meeting was held on July 21,
    2009, with a press conference that followed. The McKenna Long and Aldridge report that had
    been commissioned by the Audit Committee of the Board in February of 2009 was released.
    TVA management acknowledged at the July 21, 2009, meeting many of the management failures
    that we identify in this report. These admissions reflect the type of transparency and
    accountability for TVA that the OIG has pressed for some time. We applaud the TVA Board’s
    leadership in this matter and TVA management’s acknowledgement of TVA’s role in the Kingston
    Spill.
4
    The OIG previously reported the results of its assessment of TVA’s: (1) emergency response to
    the spill, (2) communications with the community and media, and (3) reparations to the victims
    and the community. See Inspection 2008-12283-01, Kingston Fossil Plant Ash Slide Interim
    Report, dated June 12, 2009.

Inspection 2008-12283-02                                                                   Page 2
Office of the Inspector General                                 Inspection Report


TVA’s CEO provided comments on a draft to this report. The CEO
generally agreed with our recommendations and, in addition to identifying
actions already taken, stated that actions in-process or planned include:

•   Implementing a cultural focusing initiative across the agency,
    incorporating lesson learns from Kingston.

•   Using the detailed, technical explanation of what and how the Kingston
    dike failure occurred, “to make more specific inquiries as to how the
    failure could have been prevented in fact and, more importantly, what
    steps we can take to ensure that it never happens again and to safely
    close the failed cell.”

•   Developing and implementing (1) more detailed and rigorous policies
    and procedures for storing, handling, and maintaining ash and ash
    disposal facilities and (2) a comprehensive program for future Coal
    Combustion Product remediation and conversion.

•   Implementing enterprise risk management improvements to better
    achieve the goals of the program.


                          SUMMARY OF FINDINGS
The Kingston Spill is one of the most significant and costly events in TVA
history. The immediate consequence of this disaster includes public
doubts created about TVA’s commitment to environmental stewardship.
As we have pointed out in a previous report on the ash spill, TVA has
made great strides in its efforts to make whole the individual victims of this
spill, and it has demonstrated a genuine commitment to restore the
surrounding area in Roane County, Tennessee, and to make it better than
before. Unfortunately, as we discuss in this report, a critical part of
remediation is missing. Any restoration for individual victims or the
community of necessity involves an acknowledgement of TVA’s role in
what happened in the early morning hours on December 22, 2008.

•   TVA FAILED TO INVESTIGATE AND REPORT MANAGEMENT
    PRACTICES THAT CONTRIBUTED TO THE KINGSTON SPILL
    TVA pledged early on to find out what caused the Kingston Spill. The
    reasonable expectation created for TVA stakeholders was that TVA
    would address not only the technical details of the ash pond failure but
    also what acts of TVA contributed to the spill. We find that the root
    cause analysis commissioned by TVA did not investigate what
    management practices or policies and procedures allowed conditions
Inspection 2008-12283-02                                                  Page 3
Office of the Inspector General                                                       Inspection Report


      to advance to the critical stage that precipitated the spill. TVA’s CEO
      delegated the scoping of the root cause analysis to the OGC, which
      resulted in a scope that severely limited the value of AECOM’s work.
      Litigation strategy seems to have prevailed over transparency and
      accountability. Bill Walton of AECOM was discouraged from disclosing
      information to the public that was relevant and necessary for the
      analysis of the safety of the remaining Kingston ash ponds and other
      TVA ash ponds.

•     TVA COULD HAVE POSSIBLY PREVENTED THE KINGSTON
      SPILL IF IT HAD TAKEN RECOMMENDED CORRECTIVE ACTIONS
       TVA was aware of “red flags” that were raised over a long period of
      time signaling the need for safety modifications to TVA ash ponds.5
      These “red flags” were raised both by TVA employees and by
      consultants hired by TVA. Specifically, a 1985 internal memorandum
      written by a TVA engineer and two 2004 reports by external
      engineering consultants raised concerns about the stability of the
      Kingston ash storage facilities. For reasons that are still not entirely
      clear, appropriate safety modifications and additional analyses were
      not made. Marshall Miller holds that TVA could have possibly
      prevented the Kingston Spill if it had implemented the recommended
      safety modifications.

•     AECOM OVEREMPHASIZED THE “SLIMES” LAYER AS A
      TRIGGER FOR THE KINGSTON SPILL, WHICH COULD LIMIT
      CORRECTIVE ACTIONS
      In Marshall Miller’s opinion, AECOM’s root cause study focused
      disproportionately on the significance of a thin, discontinuous, soft
      foundation layer (i.e., a sensitive silt and “slimes” foundation layer) as
      one of the most probable factors/root causes.6 While Marshall Miller
      agrees that the fundamental conclusions by AECOM with regard to the
      four most probable root causes or factors7 contributing to the Kingston
      ash pond failure are technically plausible and reasonably supported by
      the study data, and that all four contributed significantly to the failure,

5
    This report is the work solely of the TVA OIG and its consultant and the findings, conclusions,
    and recommendations do not represent the views of TVA. The TVA OGC is the arbiter of how
    rules and regulations, statutory law, and common law apply to TVA. This report should not be
    interpreted in any way so as to represent or bind TVA in any litigation concerning the Kingston
    Spill.
6
    Marshall Miller determined that the scope of the root cause study, as presented by AECOM, was
    sufficient, the methodologies applied reasonable, and the findings technically plausible.
    However, as discussed in this report, Marshall Miller concluded that the AECOM study results
    focused disproportionately on the slime layer.
7
    The four most probably root causes identified by AECOM were fill geometry, increased fill rates,
    soft foundation soils, and loose, wet ash. The upstream-constructed dike configuration on
    sluiced ash foundation is one of the significant, inherent components of the “fill geometry” factor.
Inspection 2008-12283-02                                                                         Page 4
Office of the Inspector General                                   Inspection Report


    Marshall Miller concluded that factors other than the “slimes” layer may
    have been of equal or greater significance. Specifically, Marshall Miller
    concluded that (1) the “fill geometry” is of equal or greater significance
    and is a condition that may exist in other ash disposal facilities, and
    (2) the characteristics of the loose, wet ash pose the wet ash as a
    probable root cause of equal or greater significance to the soft
    foundation soils.

    In addition to independently reviewing the root cause analysis
    performed by AECOM, the OIG asked Marshall Miller to provide input
    regarding how to address ash management at TVA. Marshall Miller
    concluded that in assessing the stability of its wet ash storage facilities,
    TVA should determine whether any of the four factors contributing to
    the failure at Kingston exist elsewhere and might pose a substantive
    risk of failure. Marshall Miller concluded that TVA’s assessment
    should not be limited to just looking for the existence of the
    combination of all four contributing factors found at Kingston. The goal
    of the stability assessment, according to Marshall Miller, is for TVA to
    develop and then implement (where found necessary) appropriate
    corrective actions to raise the standards of its wet ash storage
    facilities, targeting engineering and regulatory standards applicable to
    dams with similar hazard classification. Marshall Miller indicates that
    there is an unqualified risk of other dike failures if changes are not
    made in the design and operation of the wet ash disposal operations
    throughout TVA. Moreover, in Marshall Miller’s opinion, had TVA
    included ash ponds in the Dam Safety Program, the probability of
    identifying some or all of the conditions that led to the Kingston failure
    would have increased significantly.

    As noted above, TVA precluded AECOM from making these types of
    recommendations, thus limiting the value of the root cause study. The
    AECOM lead engineer on the root cause study spent several months
    examining in detail the conditions at Kingston and thus, in our opinion,
    would be well positioned to offer recommendations for improving TVA’s
    ash management. Instead of soliciting recommendations from
    AECOM, TVA hired Stantec to assess the condition of its ash ponds
    and help restructure ash management.

See Appendix B for Marshall Miller’s peer review report on AECOM’s root
cause analysis and Appendix C for observations and comments on TVA’s
past ash management practices, and opinions and input regarding how to
address ash management at TVA.



Inspection 2008-12283-02                                                    Page 5
Office of the Inspector General                                                 Inspection Report



•     TVA’S ENTERPRISE RISK MANAGEMENT PROGRAM DID NOT
      ADEQUATELY ADDRESS KNOWN RISKS ASSOCIATED WITH
      ASH PONDS
      Despite internal knowledge of the risks associated with ash ponds, we
      found no evidence that TVA’s formal Enterprise Risk Management
      process, which began in 1999, had identified ash management as a
      risk. An Enterprise Risk Management system is designed to identify
      and mitigate risks that could adversely affect the organizations ability
      to achieve their mission and objectives. Risks associated with ash
      management that were known internally as early as 1987 were not
      adequately mitigated.

      In 1987, an internal memorandum from the TVA Director of
      Environmental Quality to the TVA Manager of Policy, Planning, and
      Budget stated that, “Greater amounts of ash have resulted in
      expansions of ash ponds. In some instances the dikes that contain
      this water have become quite high with increasing risk and
      consequences of a breech. Because of the potential for harm to both
      surface and groundwater from the failure of a dike, greater attention
      and establishment of more specific inspection standards for these
      dikes should be examined.” This triggered discussion among some in
      TVA about whether the ash ponds should have been managed under
      TVA’s Dam Safety Program,8 which would have required substantially
      more rigorous inspections and engineering. Some managers and
      executives within TVA took the position that doing so was unnecessary
      for safety, and TVA was not technically required to do so; ultimately,
      TVA did not place the ash ponds under its Dam Safety Program.

•     THE CULTURE AT TVA’S FOSSIL FUEL PLANTS IMPACTED ASH
      MANAGEMENT
      Our review disclosed attitudes and conditions at TVA’s fossil fuel
      plants that emanate from a culture that impacted the way TVA handled
      coal ash. Over the last nine months the OIG has conferred with the
      TVA Board and TVA management about what we perceive to be
      systemic problems that have their genesis in the culture. While we
      recognize that there is no one culture at TVA and instead there are
      subcultures that vary from one organization to another within TVA,
      there are common themes we find antithetical to the level of
      transparency and accountability expected of a public utility. While the
8
    TVA’s Dam Safety Program seeks to ensure the structural integrity and safe operation of TVA’s
    49 dams and appurtenant structures, instrumentation to monitor dam performance, periodic
    inspections, maintenance and repairs, and emergency preparedness. The Dam Safety Program
    is also responsible for saddle dams and dikes in the TVA system. The TVA Dam Safety Officer
    is responsible for ensuring that TVA’s Dam Safety Program meets federal guidelines for dam
    safety.
Inspection 2008-12283-02                                                                   Page 6
Office of the Inspector General                                  Inspection Report


    culture at TVA’s fossil fuel plants is not the cause of the Kingston Spill,
    the culture, in our view, contributed to the spill, and it is likely to be
    resistant to the kinds of reforms necessary to avoid other safety
    failures.

    TVA culture at fossil fuel facilities relegated ash to the status of
    garbage at a landfill rather than treating it as a potential hazard to the
    public and the environment. We believe this resulted in significant
    weaknesses in ash management practices across TVA, including:
    (1) a failure to implement recommended corrective actions that could
    have possibly prevented the Kingston Spill; (2) the lack of policies and
    procedures; (3) poor maintenance; (4) the lack of specialized training;
    (5) multiple organizational structure changes; (6) inadequate
    communication; and (7) a failure to follow engineering best practices.

    TVA management is now implementing new policies and procedures
    to change the way TVA handles coal ash. History, however, suggests
    that the very best policies and procedures can be successfully resisted
    by a strong legacy culture. For TVA to be successful in avoiding
    another Kingston Spill, the culture must be accurately assessed,
    compliance with new policies and procedures must be faithfully
    measured with appropriate metrics, and employees must be educated
    to think differently about ash management than they have over several
    generations. We believe TVA needs a dedicated cadre of
    professionals skilled in change management focused solely on driving
    compliance throughout TVA.

•   TVA HAS RECENTLY ACTED TO ADDRESS CERTAIN ASH
    MANAGEMENT WEAKNESSES
    Since the Kingston ash spill, TVA management has begun to reassess
    its ash management program and has taken several actions to
    improve ash management across the agency. These actions include
    (1) organizational changes to address management and accountability
    issues, (2) changes designed to change the corporate culture which
    had de-emphasized the importance of ash management, and (3) steps
    to assess ash storage facilities against dam safety guidelines with the
    goal of complying with dam safety guidelines where possible.




Inspection 2008-12283-02                                                   Page 7
Office of the Inspector General                                  Inspection Report



                         FACTUAL BACKGROUND
ASH PONDS

Coal ash is what is left after coal is burned in power generating plants. Fly
ash, captured by electrostatic precipitators, and bottom ash, taken from the
boilers, are mixed with water and pumped to the ash containment ponds.
KIF produced 1,000 tons, or 1,200 cubic yards, of coal fly ash daily when
operating at full capacity.

Since the 1950’s, TVA’s KIF has been storing its coal ash in containment
ponds at the plant site, which is adjacent to the Emory River. The initial
KIF ash pond was built over the former Swan Pond Creek flood plain,
which is illustrated by Picture 1 on page 9. By 1965, the initial ash pond
was filled. Picture 2 on page 9 illustrates the configuration of the initial ash
pond. After the initial ash pond was full, a settling pond and ash storage
(i.e., dredge) cells were constructed. The ash storage area was subdivided
into smaller dredge cells. The dredge cells consisted of perimeter dikes
that were stacked on top of each other and upon previously sluiced ash
materials. At KIF, the specific process for moving ash from the plant to the
dredge cells included:

•   Mixing ash with water in the plant and pumping it to a settling pond.
•   Dredging the ash after it settled to the bottom of the pond.
•   Pumping the dredged wet ash into the storage cells.




Inspection 2008-12283-02                                                   Page 8
Office of the Inspector General                               Inspection Report


                        Picture 1 -- Swan Pond in Year 1949




                          Picture 2 -- KIF Ash Pond in 1962




Inspection 2008-12283-02                                                Page 9
Office of the Inspector General                                Inspection Report


TVA plant personnel visually inspected the dikes daily. TVA’s engineers
performed a more comprehensive inspection annually. The Tennessee
Department of Environment and Conservation (TDEC) also inspected the
ash pond dikes quarterly. In 2003 and 2006, small localized slope failures
occurred on the dikes of the ash pond which were addressed by TVA with
the assistance of a consulting engineering firm. The last TDEC inspection
was in August 2008, and no deficiencies were found. The last KIF ash
pond daily visual inspection was Sunday afternoon, December 21, 2008.
No problems were noted.

On December 22, 2008, the north and central portions of the ash disposal
site failed shortly before 1 a.m. EST, an estimated 5.4 million cubic yards
of ash were released in a progressive sequence of flow slides over a
period of one to two hours. The release extended over approximately
300 acres outside the ash storage area, causing damage to 26 homes,
disrupting electrical power, rupturing a natural gas line in a neighborhood
located adjacent to the plant, and covering a railway and road in the area.
The flow slide extended northward approximately 3,200 feet beyond the
limits of the original ash pond over the Swan Pond Creek flood plain, a
back water slough of the Emory River and into the former Emory River
channel of Watts Bar Reservoir. The ash disposal cell which failed had
been permitted by TDEC as a Class II Solid Waste Landfill under state
regulations.

ASSESSING THE ROOT CAUSE
As we have noted earlier, TVA’s CEO Tom Kilgore tasked the OGC with
contracting with an expert to do a root cause analysis. OGC retained
AECOM in early January 2009 to conduct an independent analysis to
determine the root cause of the KIF dike failure. AECOM is a global
provider of professional technical and management support services to a
broad range of markets, including transportation, industrial facilities,
environmental, and energy. TVA's OGC also retained Dr. Gonzalo Castro
to provide advice and assistance and peer review the root cause analysis.
Dr. Castro is a civil engineer with more than 35 years of experience in
geotechnical engineering. He is a recognized expert in seismic analysis
and earthquake engineering. As part of the root cause analysis, AECOM
(1) drilled 147 sampling borings; (2) located, surveyed, and logged
identifiable relics; (3) conducted interviews to establish timelines;
(4) reviewed existing TVA records to establish filling and flooding history;
and (5) performed seepage and stability analyses. As noted above, the
root cause analysis was limited to determining the more probable factors
contributing to the Kingston failure.


Inspection 2008-12283-02                                               Page 10
Office of the Inspector General                                                   Inspection Report


The OIG retained Marshall Miller to perform an independent peer review
of the TVA commissioned root cause analysis by AECOM. Marshall Miller
has expertise in coal ash and other waste materials, containment design
for hydraulically placed or sluiced ash and mine tailings, earthen and mine
waste dams and, more generally, materials science and geotechnical
engineering. Marshall Miller’s peer review of AECOM’s root cause
analysis is presented in the attached Appendix B. A summary of Marshall
Miller’s conclusions and observations is presented in the following section.


                                        FINDINGS
TVA FAILED TO INVESTIGATE AND REPORT MANAGEMENT
PRACTICES THAT CONTRIBUTED TO THE KINGSTON SPILL

Great Expectations
In the aftermath of December 22, 2008, when asked about TVA decision
making prior to the Kingston Spill, TVA officials repeatedly pointed to the
root cause analysis report to come. For example, at the hearing before
the Senate Environment and Public Works Committee on January 8,
2009, Senator Barbara Boxer’s query to CEO Tom Kilgore as to what
steps TVA would have done differently, Kilgore replied that he “…..would
like to get the failure investigation complete and know exactly what the
cause was.”9 Senator Boxer was clear in questioning Kilgore at the
hearing that answers were expected not just about the technical physical
failure of the ash pond at Kingston, but that answers were expected from
TVA as to TVA’s culpability in managing the ash ponds.10 Kilgore’s written
testimony included a statement that, “We are beginning an independent,
in-depth root cause analysis to determine why the ash pond dike failed.”11

Clearly, a reasonable expectation was created for Congress and TVA’s
other stakeholders that since January of 2009, TVA has been working
diligently to explain why the Kingston ash spill occurred. It was not
foreseeable that, in fact, TVA would not review what management
practices may have contributed to the failure, but would instead tightly
circumscribe the scope of review to intentionally avoid revealing any

9
   U.S. Senate Committee on Environment & Public Works, Full Committee hearing entitled,
   “Oversight Hearing on the Tennessee Valley Authority and the Recent Major Coal Ash Spill,”
   Thursday, January 8, 2009.
10
   “A lot of questions surrounding your decision making prior to the failure.” (Emphasis added),
   [U.S. Senate Committee on Environment & Public Works, Full Committee hearing entitled,
   “Oversight Hearing on the Tennessee Valley Authority and the Recent Major Coal Ash Spill,”
   Thursday, January 8, 2009.
11
   Written testimony of Tom Kilgore, President and Chief Executive Officer, Tennessee Valley
   Authority, before the Environment and Public Works Committee, January 8, 2009.
Inspection 2008-12283-02                                                                    Page 11
Office of the Inspector General                                  Inspection Report


evidence that would suggest culpability on the part of TVA. In fact, it
appears that TVA management made a conscious decision to present to
the public only facts that supported an absence of liability for TVA for the
Kingston Spill.

No “Could Have, Would Have, Should Have” For TVA: Let’s Just All
Move Forward
On June 25, 2009, TVA held a press conference to deliver AECOM’s root
cause analysis report. Bill Walton of AECOM appeared for his company
and COO Bill McCollum represented TVA at the press conference. The
presentation was tightly scripted to avoid any discussion of management
errors at TVA. This is best captured by the following exchange by a
member of the media and COO Bill McCollum:

         Question: “Well, should it have been, should TVA or TDEC
         have been more observant before that permit was issued to
         have discovered it? I mean it said it was a stable facility and
         apparently it wasn’t.”

         McCollum: “Well, I think that if you take what’s been
         learned from the root cause analysis and from what
         Mr. Walton said about the depth of inquiry and investigation
         that it took to find some of the things that are reported here
         in the analysis, it’s pretty hard for me to go back and say
         could have, would have, should have about things that you
         might have found at some point in the past.”

         Repeated efforts by the media to learn anything about TVA’s
         culpability were met with artful dodges. Clearly, both
         McCollum and Walton had been schooled in how to deflect
         any question that would elicit an answer that would suggest
         legal liability for TVA. The apparent agreed upon program
         was to avoid going back and second guessing TVA
         decisions and to counsel the media to focus only on the
         future. An example of the delicate tap dance required is
         shown in the following exchange between the media and
         Bill Walton.

         Question: “Not that you would have, but had you done your
         analysis prior to the event and noticed the slime layer and
         noticed sort of all of this coming together as one, what would
         you have recommended at the time? Would there have
         been a way to stop it, fix it, or would you have to shut it


Inspection 2008-12283-02                                                   Page 12
Office of the Inspector General                                   Inspection Report


         down? What would you do had you discovered all of these
         factors prior?”

         Walton: “I think that’s the challenge of coming to this and
         doing this study. It presents the position of going forward on
         lessons learned. Hindsight is 20/20. Let’s take the lessons
         learned and move forward.”

         Not once during the press conference was even a
         begrudging acknowledgement made that TVA could have
         done anything differently. On the contrary, as seen above,
         the emphasis was on how difficult it was for AECOM to
         discover the cause of the Kingston Spill (mostly the “slime”
         layer) and by inference TVA could not be expected in the
         exercise of due diligence to have discovered a problem.
         Even the building of the ash pond over the lake in the ‘50’s
         was forgiven by Walton as demonstrated by this exchange
         with the media.

         Question: “If you were building it now, would you say that’s
         probably not a good site?”

         Walton: “It would be different criteria. Not that it couldn’t be
         built, but perhaps in ’51 or ’54 you would have to know the
         ultimate fate of the structure. And I don’t know that anyone
         then knew what the geometry would be with the Clean Air
         and Clean Water Act. So there are circumstances of policy
         there, that affect that answer.”

         Most telling perhaps was the defense put forward by Walton
         that TVA could not have discovered the “slimes” layer which
         was the focus as the triggering mechanism for the spill. This
         defense was articulated in response to another question by
         the media:

         Question: “Dr. Walton, was there anything in your review of
         the previous stability analysis and other historic documents
         from TVA that would have or should have raised a red flag
         for anyone reviewing those documents, say in the immediate
         aftermath of their creation? I mean if there was a stability
         analysis in 1981 was there anything in that one or any of the
         others that would have said oh we should investigate this
         site further before the stack height or take any other
         measures?” (Emphasis added)

Inspection 2008-12283-02                                                    Page 13
Office of the Inspector General                                   Inspection Report


         Walton: “Yes, we did look at earlier stability analyses as
         part of the root cause analysis. And in that root cause
         analysis, we had to look at the facts that were in front of us.
         And those signs simply were not identified in those, and it
         took us two-and-a-half months to find that. So I guess it’s
         lessons learned to move forward.” (Emphasis added)

While both Walton and McCollum cautioned that the focus should
be on “lessons learned” and moving forward, it is not entirely clear
what lessons TVA has learned. Since, according to TVA via its
representatives, there were no “red flags” that TVA could have
spotted to take corrective actions, and since TVA cannot say that
even building the ash pond out on a lake bed was a bad site, what
exactly were the “lessons learned going forward?” If as it appears
TVA is saying that the “slimes” layer is a unique phenomenon
appearing only if TVA builds an ash pond out on a lake bed and
TVA does not intend to build an ash pond on a lake bed, what
structural defects or management practices need to be avoided
“going forward”? We have examined the press conference
presentation on June 25, 2009, with some care. We have yet to
discover one “lesson” TVA says that it learned. This does not bode
well for the future.

We know that TVA has, in fact, learned from the December 2008
spill, and we know that because of the management changes that
we report in the final section of this report. We believe that TVA
should state publicly those lessons learned and that list would
include, among others:

1. Building the original ash pond over a lake bed was a faulty
   design;

2. Corrective actions recommended both by TVA employees and
   by consultants should have been implemented;

3. Stacking ash to the heights contemplated at Kingston was a bad
   idea;

4. Not having policies and procedures for ash management
   contributed to the spill;

5. A culture that minimized the importance of ash management
   needs to be changed; and


Inspection 2008-12283-02                                                   Page 14
Office of the Inspector General                                                 Inspection Report


6. Wet ash ponds should comply with dam safety standards rather
   than with landfill standards.

TVA’s Dilemma: Accountability or Litigation Strategy?
TVA had a clear but difficult choice to make in the aftermath of the
Kingston Spill. One choice was to conduct a diligent review of TVA
management practices as well as to conduct a technical physical
examination of the failed structure and then to publish whatever was
discovered to the world. The second choice was to “circle the wagons,”
carefully craft press releases to project TVA in the most favorable light,12
and to tightly control any reports done by TVA of the failure to minimize
legal liability. The first choice required a value judgment that a
government agency causing a major disaster affecting the lives and
property of citizens around the Kingston Fossil Fuel Plant should err on
the side of transparency and accountability. The downside to this choice
is providing fodder for plaintiffs in litigation against TVA and bringing
perhaps additional scrutiny on the agency.

The second choice also required a value judgment. That choice placed a
premium on the preservation of TVA assets and the protection of an
image of environmental stewardship. The advantage of this choice was
limiting legal liability which arguably inures to the benefit of ratepayers and
avoiding scrutiny of TVA management practices that might have
contributed to the Kingston Spill.

We are not privy to the calculation made by TVA as to the relative merits
of these two difficult choices. We are, however, privy to facts that suggest
a predictable outcome from TVA electing to go with the second choice.
First, we have found no evidence of any intention on the part of TVA to
require AECOM to conduct a review of management practices that might
have contributed to the Kingston Spill. During the course of the root cause
study, TVA never claimed that a review of their management practices,
policies, and procedures or consultants’ reports would be publicly
disclosed.13 Second, the decision to delegate from the CEO to the OGC
the responsibility of managing the root cause study predetermined the
choice that would be made between accountability and litigation strategy.
The OGC did what good lawyers do; they defend their client. TVA’s
lawyers do not make TVA policy and do not determine the degree of

12
   See OIG report, Inspection 2008-12283-01, Kingston Fossil Plant Ash Slide Interim Report,
   dated June 12, 2009, where we examined TVA’s response to media inquiries immediately after
   the Kingston Spill.
13
   TVA has shown a belated interest in this in response to the Inspector General’s probing about
   whether such a review was being conducted by TVA. Six months after the Kingston Spill,
   however, no review by TVA of management practices has commenced. We conclude that TVA
   did not intend to conduct such a review.
Inspection 2008-12283-02                                                                  Page 15
Office of the Inspector General                               Inspection Report


transparency or accountability for TVA. Third, the power to write the
scope of the root cause study carried with it the inherent power to prevent
disclosures that could potentially be damaging to TVA’s defense against
litigation from plaintiffs claiming damages from the Kingston Spill.
Obviously, the more narrow the scope, the better for those entrusted with
defending TVA in court.

Finally, the relationship created here was not with TVA generally and the
Office of Legal Counsel but was instead between the OGC and AECOM.
It was the lawyers who controlled the engagement whether they were the
actual lawyers going to court to defend TVA or merely lawyers in the same
office.

We should make clear that we are not suggesting that the facts recited
above indicate any lack of independence of AECOM or more particularly
any lack of independence of Bill Walton. On the contrary, our observation
is that Bill Walton is the consummate professional not susceptible to any
undue influence. Nor did we find any evidence of any effort to influence
Walton’s work. His conclusions as to the root cause appear to be based
entirely upon his forensic work as a respected expert in his field.

The OIG interviewed Walton on two occasions. He stated AECOM was
retained by TVA OGC to perform a root cause analysis of the
December 22, 2008, dredge cell failure to determine the most probable
cause(s) and location of the failure at the site. AECOM was also retained
to provide peer review of remedial containment designs by Stantec and
Geosyntec at Kingston and to check if the designs are consistent with
post-failure geotechnical conditions encountered in AECOM investigations
and to peer review ash handling, restoration and containment designs by
Stantec and Geosyntec at the Kingston site to check if designs were/are
consistent with the post-failure geotechnical conditions in AECOM
investigations. He made it clear that he had been specifically directed not
to, among other things, review the: (1) standard of practice used by TVA
or their consultants for the design and construction of the ash ponds and
dredge cells; (2) fate and transport of potential ash and possible
contaminates from the cells into the environment; (3) design of remedial
construction measures to clean and restore the Kingston site; (4) designs
and operations at other TVA wet dredge cell disposal sites. (It should be
noted that AECOM provided limited services at a gypsum dredge cell
water release at the TVA’s Widows Creek facility on January 9, 2009.)
In our opinion, the defined limitations in scope precluded AECOM from
(1) reviewing or judging the management practices of TVA in conjunction
with the design, construction, or operation of TVA ash ponds;
(2) determining fault for the Kingston Spill; and (3) judging TVA employees

Inspection 2008-12283-02                                              Page 16
Office of the Inspector General                                Inspection Report


or contractors. These restrictions placed on AECOM are consistent with a
sound litigation strategy but are inimical to transparency and accountability
for TVA. This is particularly true since TVA has evidenced no intention to
address the areas listed above through either TVA management or
anyone else.

We conclude that TVA defaulted to a preference for litigation strategy over
transparency and accountability once the root cause study was turned
over to the lawyers. Our conclusion is buttressed by TVA’s obvious
decision not to conduct a review of its management practices either as
part of the root cause analysis or by a separate review. As far as the root
cause analysis, the constraints placed on Bill Walton appear to have been
intended to avoid any such review. While it would have increased the
delay in announcing a root cause, having Walton review TVA’s
management practices would have allowed a recognized expert to provide
a measure of transparency and accountability that is sorely lacking.

When the OIG interviewed Bill Walton he offered opinions that were not
made a part of his written report or stated at the June 25, 2009, press
conference. First, based on Walton’s root cause analysis report and
information presented to Walton by Stantec early in May 2009, and
conditioned on Walton fully investigating such issues, Walton believes
there may be an issue with other TVA ash ponds built on soft clay that
may be particularly vulnerable to static and seismic loading or disturbance.
That, according to Walton, is particularly true for those ash ponds in West
Tennessee closer to the New Madrid Seismic Zone. Secondly, Walton
expressed the belief that it might be more appropriate to treat wet ash
ponds, like the one at Kingston, as a tailings dam designed to contain wet
ash and hold water as opposed to treating such ash ponds as a landfill.
Finally, conditioned on Walton fully investigating hypothetical failures,
Walton believed that continually stacking the ash, like TVA was doing
before the spill, might lead to an eventual breach. None of these positions
has been reported by TVA. Given the expertise Walton has and the
substantial fee paid to AECOM, TVA and TVA stakeholders would have
been better served by TVA eliciting and sharing this information with the
public.

Finally, we note that the conclusion reached by AECOM that the slime
layer was a triggering device for the Kingston Spill enhances TVA’s
litigation efforts against claimants. The point was repeatedly made at the
June 25 press conference that the slime layer was unique to Kingston and
not found at any other TVA ash pond. AECOM did not attribute the failure
to TVA’s design of the ash pond or to TVA’s operation of the ash pond.
Walton, as noted earlier, even declined to say that building an ash dike out

Inspection 2008-12283-02                                               Page 17
Office of the Inspector General                                  Inspection Report


on a lake bed was not a good idea. Does TVA know that building an ash
pond over a lake bed is a bad idea? This is apparently not a “lesson
learned” based on what TVA and its consultants are willing to say publicly.

Tagging the “slime layer” as the triggering mechanism for the Kingston
Spill is fortuitous. The outcome for TVA results in TVA being able to claim
that: (1) the “slimes layer” was too difficult for TVA to have found, and
therefore, TVA management’s liability is minimized; (2) TVA does not have
to do anything differently since no fault was found in either the design of
the ash pond or in the operation of the ash pond; (3) TVA management
has no culpability because they couldn’t have found the cause of the spill,
and therefore, no legal liability; (4) there are no adverse implications for
the utility industry since Kingston was a “one-off” event caused by a
condition not believed to be present anywhere else in the world; and
(5) since there are no “slime layers” at any other TVA facility, there is no
cause for concern about those other ash ponds. As Marshall Miller points
out later in this report, AECOM’s emphasis on the “slime layer” is
misplaced and inappropriately diminishes the role that the design and
operation of the Kingston ash pond played in the spill. For all of these
reasons, we conclude that TVA’s explanation of the root cause of the
Kingston Spill is suspect.

Perhaps some would say that it is unrealistic that a government agency
would choose to disclose information that could be either embarrassing or
that could create legal liability. It is certainly true that there are at times
legitimate reasons for a government agency to withhold information from
the public. We fail to see where that is the case here.

TVA COULD HAVE POSSIBLY PREVENTED THE KINGSTON SPILL IF
IT HAD TAKEN RECOMMENDED CORRECTIVE ACTIONS

TVA had been made aware of certain “red flags” that were raised over a
long period of time signaling the need for safety modifications to TVA ash
ponds. These “red flags” were raised both by TVA employees and by
consultants hired by TVA. Specifically, a 1985 internal memorandum
written by a TVA engineer and two 2004 reports by external engineering
consultants raised concerns about the stability of the Kingston ash storage
facilities. For reasons that are still not entirely clear, appropriate safety
modifications were not made. Marshall Miller holds that TVA could have
possibly prevented the Kingston Spill if it had implemented the
recommended safety modifications.




Inspection 2008-12283-02                                                 Page 18
Office of the Inspector General                                                    Inspection Report


In April 1985, an internal memorandum written by a TVA engineer raised
serious concerns about the stability of Dike C of the Kingston ash storage
facility.14 This memorandum states that Dike C had not been built
according to design drawings. It further states that the dike’s “as built”
factor of safety was less than desirable and therefore recommended that
plant personnel inspect Dike C daily. When asked by the OIG to review
this memorandum, Marshall Miller stated that the memorandum:

         which indicate that the calculated factor of safety was less
         than the minimum acceptable value of 1.5 and close
         monitoring was recommended to detect any potential signs
         of failure in lieu of changing TVA policies and procedures
         that would require that the ash pond would be designed to
         the higher “dam safety” standard.15 The construction of
         successive upstream stages to elevations 820
         (approximate crest elevation of Dredge Cell No. 2 at the
         time of failure) above the original containment dike system
         (“Perimeter Dike C” – approximate crest elevation of 748
         feet) may have contributed to an additional decrease in the
         factor of safety of the containment dike system. In
         essence, at the time of failure on December 22, 2008, this
         increase in constructed height equated to an approximate
         70-foot increase in the height of the ash pond above the
         crest elevation of the original Perimeter Dike C.

In June 2004, Worley Parsons (Parsons) reported on the results of a slope
stability analysis it performed at TVA’s request related to the design of an
upward expansion of the Kingston coal pond. At the time of the spill, the
expansion design had been approved by TVA and some of the work
completed. This upward expansion would have resulted in more of the
ash being piled into the cell that later spilled. In its report, Parsons noted
the existence of an approximately 7- to 10-foot thick layer of loose ash
immediately overlaying the clay soil beneath the ash pond. Parsons
further noted that this layer of loose ash may undergo liquefaction16 under
certain circumstances, including a seismic event. Parsons stated that the
probability of this occurring was “extremely low.” However, they then

14
   This memorandum, dated April 3, 1985, was from TVA’s Director of Engineering projects to
   TVA’s Director of Fossil and Hydro power. The memorandum subject was: “Kingston Steam
   Plant – Dike C Soils Investigation and Engineering Study Results.”
15
   As discussed later in this report, designing to dam standards would have required a significantly
   higher level of engineering, inspection, stability analyses, and the like.
16
   Dictionary.reference.com defines liquefaction as the process by which sediment that is very wet
   starts to behave like a liquid. Liquefaction occurs because of the increased pore pressure and
   reduced effective stress between solid particles generated by the presence of liquid. It is often
   caused by severe shaking, especially that associated with earthquakes.
Inspection 2008-12283-02                                                                    Page 19
Office of the Inspector General                                                     Inspection Report


stated that methods of predicting liquefaction have proven to be
“insufficient” and, therefore, recommended that TVA take measures to
improve drainage in the ash pond. When we inquired with TVA officials as
to whether this recommended drainage system had been installed, we
learned that it had not.

We also found that TVA contracted with a second consulting firm,
Geosyntec, to conduct an engineering peer review of coal byproduct
(gypsum and ash) plans for the Kingston plant, including the stability
analyses completed by Parsons pertaining to the ash pond expansion
design. According to a TVA manager, TVA hired Geosyntec to perform
the peer review because of questions about the quality of the Parsons’
study. Geosyntec reported the results of its work to TVA in November
2004. With regard to the proposed drainage system and liquefaction,
Geosyntec found that (1) an analysis estimating the liquefaction potential
of the ash layer was not performed and therefore the need for the drains
was not determined, and (2) the effect the drains would have had was not
calculated and, therefore, it is unclear whether the drains would have been
effective at mitigating liquefaction. In its report to TVA, Geosyntec
concluded that the “potential for liquefaction should be estimated and,
depending on the results of this estimate, a liquefaction analysis may be
required. If the site is expected to liquefy then ground improvement
techniques need to be implemented.” (Emphasis added) In addition,
Geosyntec questioned certain aspects of the stability analysis performed
by Parsons and made recommendations pertaining to stratigraphy,17
design material/soil property, slope stability evaluation, and veneer
stability analyses.

When asked whether the Geosyntec recommendations had been
followed, TVA officials responded that they had not. The TVA CEO
remarked that he had noted the significance of the Geosyntec study and
inquired internally why the recommendations had not been implemented;
according to the CEO, he was unable to ascertain why.

When asked to review the 2004 Parsons and Geosyntec reports for the
OIG, Marshall Miller concluded that the Geosyntec report should have
served as a clear warning to TVA regarding the stability of the Kingston
ash storage facilities. Marshall Miller stated that it was evident from the
findings and recommendations in the Geosyntec report that the expansion
design should have been modified to conform to a more stringent design
configuration. Upon completion of the proposed expansion, which had not
occurred at the time of the failure, more height and weight would have
17
     Per PhysicalGeography.net, stratigraphy refers to the subdiscipline of geology that studies
     sequence, spacing, composition, and spatial distribution of sedimentary deposits and rocks.
Inspection 2008-12283-02                                                                     Page 20
Office of the Inspector General                                  Inspection Report


been added to what is now the failed ash pond. Marshall Miller told us
that TVA’s implementing the Geosyntec recommendations would have
resulted in additional extensive analyses and modeling. Marshall Miller
concluded that the recommendations made by Geosyntec were
appropriate and the failure of the TVA to respond to such warnings and
complete necessary revisions to the design shows that conservative
engineering design principles were not being followed within the TVA.
Furthermore, had corrective measures been taken in a timely fashion, it is
possible that TVA could have potentially prevented the occurrence of the
failure. (Emphasis added)

On June 1, 2004, TVA submitted an application to TDEC for the upward
expansion of the Kingston ash pond facility. This application was
approved by TDEC on September 12, 2006. TVA provided the Parsons’
study to TDEC as part of the permit application. However, TDEC was
unable to find documentation that the Geosyntec study was provided to
them. The TDEC permit requires TVA to submit any relevant facts it
becomes aware were not submitted. Specifically, the permit says, “Where
the permittee becomes aware that it failed to submit any relevant facts in a
permit application, or submitted incorrect information in a permit
application or in any report to the Commissioner, it shall promptly submit
such facts or information.”

We conclude that Marshall Miller’s review of these various engineering
reports demonstrates that TVA was on notice about safety issues and that
those safety issues were not addressed by TVA. TVA does not appear to
have an answer as to why these issues were not properly addressed.
Contrary to the position seemingly taken by AECOM at the June 25, 2009,
press conference, the prior engineering reports were “red flags,” and TVA
could have taken corrective action that could have possibly avoided the
Kingston Spill.

AECOM OVEREMPHASIZED THE “SLIMES” LAYER AS A TRIGGER
FOR THE KINGSTON SPILL, WHICH COULD LIMIT CORRECTIVE
ACTIONS

In Marshall Miller’s opinion, AECOM’s root cause study focused
disproportionately on the significance of one factor -- the thin,
discontinuous, soft foundation layer (i.e., a sensitive silt and “slimes”




Inspection 2008-12283-02                                                    Page 21
Office of the Inspector General                                                      Inspection Report


foundation layer) as one of the most probable factors/root causes.18 While
Marshall Miller agrees that the fundamental conclusions by AECOM with
regard to the four most probable root causes or factors19 contributing to
the Kingston ash pond failure are technically plausible and reasonably
supported by the study data, the AECOM study suggests that the failure of
December 22, 2008, depended on all four factors working in combination.
In Marshall Miller’s professional opinion, only some of the four factors
could have acted together to cause the failure. In addition, Marshall Miller
concluded that factors other than the “slimes” layer may have been of
equal or greater significance. Specifically, Marshall Miller summarized
that (1) the “fill geometry” is of equal or greater significance to the “soft
foundation soils” and might be similarly critical at other upstream-
constructed wet ash disposal facilities, and (2) the characteristics of the
“loose, wet ash” pose the wet ash as a probable root cause of equal or
greater significance to the “soft foundation soils.”

A discussion of (1) AECOM’s scope and methodology and technical
determination of what caused the Kingston Spill, and (2) Marshall Miller’s
conclusions regarding the AECOM root cause analysis and other
observations follows.

AECOM’s Scope and Methodology
AECOM executed a consulting agreement with TVA’s OGC on January 16,
2009, and commenced a data review phase shortly thereafter. AECOM’s
scope of work was limited to the identification of the likely initiator(s) (“root
cause(s)”) of the failure, which inherently encompasses consideration of
potential failure modes, possible “initiators” or “triggers” of the onset of
failure, and factors that contributed to its progression.

As field samples and observations became available, AECOM started the
laboratory testing and analytical phases of the project, which was
completed in June 2009. The purpose of the laboratory testing program
was to characterize the native soils and non-native site materials and
determine their geotechnical and mechanical properties to allow AECOM
to analyze their behavior under the conditions prevailing on-site at the time
of the failure. AECOM also performed multiple engineering analyses of
18
   The OIG contracted with Marshall Miller to perform an independent peer review of the root cause
   analysis conducted by AECOM. Marshall Miller’s work included a review of site investigations,
   evaluations, analyses, and findings and conclusions prepared by AECOM relating to the ash
   pond failure. The final root cause analysis report was published by AECOM on June 25, 2009.
   Notably, Marshall Miller did not conduct a parallel investigation to AECOM’s. Marshall Miller’s
   professional opinions are based principally on review of various documents, briefings provided
   by AECOM, and a review of their root cause analysis report.
19
   The four most probable root causes identified by AECOM were fill geometry, increased fill rates,
   soft foundation soils, and loose, wet ash. The upstream-constructed dike configuration on
   sluiced ash foundation is one of the significant, inherent components of the “fill geometry” factor.
Inspection 2008-12283-02                                                                      Page 22
Office of the Inspector General                                 Inspection Report


the data obtained from site surveys and laboratory test results, as well as
undertaking an extensive compilation and review of documents from
TVA’s archives.

AECOM’s Determination of Cause
AECOM determined that the four probable root causes of the Kingston
ash pond failure were:

1. Fill geometry (upstream-constructed dike configuration on sluiced
   ash foundation)
2. Increased fill rates (increased loads and loading rates due to
   higher fill levels and shrinking footprint)
3. Soft foundation soils (weak, sensitive silt and slimes foundation
   layer prone to creep)
4. Loose, wet ash (very loose hydraulically placed/sluiced ash is
   susceptible to collapse if subjected to rapid loading or rapid
   displacement)

AECOM specifically characterized the root cause of the failure as a
complex set of conditions, including a long-evolving combination of the
high-water content of the wet ash, the increasing height of the ash, the
construction of the sloping dikes over the wet ash, and the existence of an
unusual foundation layer consisting of sensitive slimes and silts. AECOM
concluded that the failure on December 22, 2008, depended on all four
factors, without them working in combination, the failure would have not
likely occurred on this date. AECOM’s root cause analysis discussed in
detail the thin layer of slimes beneath the dikes and identified the thin,
discontinuous, soft foundation layer (sensitive silt and slimes) as one of
the most probable factors/root causes.

Marshall Miller’s Conclusions
It is Marshall Miller’s opinion that the scope of investigation, as presented
by AECOM was sufficiently thorough for the root cause analysis and
applied appropriate investigated methods, in-situ testing techniques, and
sampling practices. Also, the fundamental conclusions of AECOM with
regard to the four most probable root causes or factors contributing to the
Kingston ash pond failure were technically plausible and reasonably
supported by the study data. Marshall Miller concurs with AECOM that
some or all of the four factors contributed significantly to the failure.
However, Marshall Miller also notes that:




Inspection 2008-12283-02                                                Page 23
Office of the Inspector General                                   Inspection Report



•   Because the failure was not strictly associated with the “thin, weak
    slimes” layer, and more associated with the ash dike (“or fill”) geometry
    and relatively low strength of the sluiced ash foundation and
    impounded material, other similarly constructed ash (or gypsum and/or
    other byproducts) impoundments could be at risk of failure and should
    be properly investigated.

•   AECOM was not able to recover and extrude undisturbed samples of
    the hydraulically placed ash for laboratory testing which adds
    uncertainty to AECOM’s characterization of the hydraulically placed
    ash; and thus, the role of the loose, wet ash as a root cause of the
    failure cannot be discounted.

•   Although the properties of the slime layer suggest it as a potential
    slippage surface based on mathematical modeling, it is not the only
    possible slippage surface. In fact, AECOM documented that slimes
    were not found in some locations, were not of consistent thickness,
    and had properties very close to those of the ash material itself.

•   The characteristics of the loose, wet ash (hydraulically placed/sluiced
    ash) pose the wet ash as a probable root cause of equal or greater
    significance to the soft foundation soils (weak, sensitive silt and slimes
    foundation layer).

Other Marshall Miller Observations
As noted earlier in the report, AECOM’s scope of work was limited to the
identification of the likely initiator(s) (“root cause(s)”) of the failure, which
inherently encompasses consideration of potential failure modes, possible
“initiators” or “triggers” of the onset of failure, and factors that contributed
to its progression. This scope limitation resulted in Marshall Miller noting
that the stated objectives of the AECOM root-cause analysis do not
encompass the task of identifying necessary changes in design
philosophy, design standards, construction documentation, inspection and
instrumentation to prevent another Kingston-type failure. In addition, the
root cause study and culminating report by AECOM defines the problem,
but does not provide clear direction to TVA in the form of technical
guidance for evaluating, designing, and constructing reliable containments
for “wet” ash disposal now or in the future. Marshall Miller also concluded:

•   Given what is known now about the ash material and the geologic
    conditions within the Kingston ash disposal facility before
    December 22, 2008, there was an unquantified probability of failure.
    Consequently, the sensitivity of the upstream-constructed containment
    dike system to changes to loading, loading rate, seepage regime,

Inspection 2008-12283-02                                                  Page 24
Office of the Inspector General                                 Inspection Report


    sluiced ash behavior, and other circumstances must be appreciated to
    preclude another catastrophic failue as occurred on December 22,
    2008.

•   As discussed more thoroughly later in this report, as early as 1985,
    intrinsic problems related to the stability of the Kingston Dike C were
    mentioned, specifically in a TVA memorandum. This memorandum
    indicated that the calculated factor of safety was less than the
    minimum acceptable value and close monitoring was recommended to
    detect any potential signs of failure in lieu of changing TVA policies
    and procedures that would require that the ash pond be designed to
    the higher “dam safety” standard. No specific action by TVA appears
    to have been taken as per the reviewed documents.

•   Had TVA included its ash ponds in the Dam Safety Program,
    discussed in December 1988 when TVA decided against this policy,
    protocol would have been established for performing customary
    geotechnical exploration, in-situ and laboratory testing, dike seepage
    and stability analyses, and adherence to the higher “dam” design
    standards, and the probability of identifying some or all of the
    conditions that led to the Kingston failure would have increased
    significantly.

•   The design of the Kingston coal ash dredge cells should have included
    a thorough engineering evaluation of all potential failure modes.

•   AECOM’s study focused disproportionately on the significance of the
    thin, discontinuous, soft foundation layer (sensitive silts and slimes) as
    one of the most probable factors/root causes. Marshall Miller stated
    the significance of the “Fill Geometry” factor/root cause should be
    equally emphasized. This fill geometry refers to upstream-constructed
    dike configuration on sluiced ash foundation. In Marshall Miller’s
    professional opinion, “Fill Geometry” is of equal or greater significance
    relative to the “Soft Foundation Soils” factor.

•   AECOM’s root cause study concludes, “The failure on December 22,
    2008 depended on all four factors [root causes], without them working
    in combination, the failure of Dredge Cell 2 would have not likely
    occurred on this date.” In Marshall Miller’s professional opinion, the
    suggestion that all four factors had to work in combination to cause the
    failure diminishes and disregards the risks that were posed by the
    upstream-constructed dike configuration and disposal procedures and
    the ever increasing height of Dredge Cell 2.


Inspection 2008-12283-02                                                Page 25
Office of the Inspector General                                 Inspection Report



•   Other factors evaluated by AECOM as probable root causes should be
    strongly considered by TVA and the power generation industry as a
    whole in evaluating the condition and structural integrity of ash
    disposal facilities. Each one of these factors is critical and should be
    closely evaluated for all of the existing TVA ash handling and disposal
    facilities. These concerns and findings could have a significant effect
    on the requirements and standards of care for facilities throughout the
    Fossil Plant industry.

•   It would not be prudent to assume that, if the slimes layer observed
    in the failed section at Kingston does not exist at other plant sites,
    there is adequate stability of these structures. On the contrary, the
    information developed from the extensive studies conducted by
    both Stantec and AECOM indicates that there is a reasonable risk
    of other dike failures if changes are not made in the design
    construction, oversight, and operation of the wet ash disposal sites
    throughout TVA.

•   If the ash ponds had been included in the Dam Safety Program,
    closer evaluation and a more sound “engineered” solution probably
    would have occurred pertaining to the 2003 leak at the Swan Pond
    road dike.

•   TVA “designs” provide very little “room for error” which was evident
    at Kingston. It is considered solid engineering practice to design
    such facilities with features that provide a reasonable degree of
    redundancy or “second line of defense” in the event that one or
    more of the systems becomes inoperable. In Marshall Miller’s
    opinion, it is important this design philosophy be applied to all of
    TVA’s ash disposal facilities.

TVA’S ENTERPRISE RISK MANAGEMENT PROGRAM
DID NOT ADEQUATELY ADDRESS KNOWN RISKS
ASSOCIATED WITH ASH PONDS
Risk management underpins an agency’s approach to achieving its
objectives and provides crucial mechanisms for staff to identify and report
key risks to senior management. An Enterprise Risk Management
process is designed to identify and mitigate risks such as those associated
with ash management. Successful implementation of a risk management
program occurs when:

•   Risk management is embedded in how the organization conducts
    business;
Inspection 2008-12283-02                                                Page 26
Office of the Inspector General                                                     Inspection Report



•      The value of risk management is clearly understood by executive and
       line managers;

•      The firm's risk tolerance is clearly articulated;

•      Risks are systematically identified, assessed, and communicated;

•      Decisions are made with due consideration to risk/return tradeoffs; and

•      Risk adjusted performance metrics are specified and monitored.

Modern corporations operate to a certain extent based on their
assessment of risks. The better the risk assessments of the company the
better the company performs. Risks tolerance differs in every industry and
in every company. Some companies have a very low risk tolerance, for
example, for activities that could result in breeches of environmental
compliance or public safety. A company’s Enterprise Risk Management
Program ideally identifies risks on what is commonly referred to as a “heat
map” according to the likelihood of a risk occurring and then the severity of
consequences if the risk event occurs. If the likelihood is high and the
severity is high, the corporation typically devotes more resources to risk
avoidance in that particular area. TVA’s Enterprise Risk Management
Program began in 1999, when TVA’s Board of Directors issued a risk
policy authorizing the creation of a Risk Management Committee,
appointment of a Chief Risk Officer, and adoption of an enterprise-wide
risk management approach.

The OIG reviewed the Enterprise Risk Management Program in both
2003 and 2008 and recommended various improvements to it. The 2008
review, done with the assistance of an external consultant with broad
knowledge of risk management practices, found that TVA had made
progress in risk identification and assessment since 2003 and that the
commitment to risk management at the top of the agency was strong.
However, the OIG assessment, published in September 2008, also found
that the program needed to be driven further down into the organization.

We determined that risks associated with ash management were known
internally as early as 1987. Despite this internal knowledge, we found no
evidence that TVA’s Enterprise Risk Management Program had identified
ash management as a significant risk.20 While TVA did not have a formal
Enterprise Risk Management process during the 1987 through 1996
20
     The only risk related to ash identified by the Enterprise Risk Management Program, in March
     2008, was the financial risk that ash ponds would be designated as hazardous waste facilities
     requiring liners and other remediation actions.
Inspection 2008-12283-02                                                                     Page 27
Office of the Inspector General                                  Inspection Report


timeframe, it did have one at the time of the Kingston Spill and for several
years prior.

In reviewing documentation, we found numerous memorandums dating
from 1987 through 1996 where TVA internally discussed whether ash
ponds should fall under the Dam Safety Program. TVA recognized that if
dam safety guidelines were implemented, additional steps would need to
be taken, such as closely reviewing the existing inspection procedures for
compliance with dam safety requirements, performing additional stability
analyses, adding monitoring instrumentation, and instigating a drilling and
testing program. Some TVA managers and executives took the position
that managing ash ponds under the Dam Safety Program was
unnecessary for safety, and TVA was not technically required to do so.
TVA ultimately did not place the ash ponds under the Dam Safety
Program.

Below are some highlights from the memorandums we reviewed where
placing TVA’s ash ponds under its Dam Safety Program was discussed:

•   In June 1987, the Manager of Policy, Planning, and Budget stated that,
    “Greater amounts of ash have resulted in expansions of ash ponds. In
    some instances the dikes that contain this water have become quite
    high with increasing risk and consequences of a breech. Because of
    the potential for harm to both surface and groundwater from the failure
    of a dike, greater attention and establishment of more specific
    inspection standards for these dikes should be examined.”

•   In response to the June 1987 memorandum, the Safety Office
    Coordinator prepared a memorandum stating: “(1) Many of these
    dikes should be classified as dam safety (possibly safety deficient) and
    inventoried into TVA’s inventory as Ash Pond Dikes, and (2) TVA
    should bite the bullet and place them under the Dam Safety Office and
    begin a program similar to the present dam safety program.”

•   In 1988, the Manager of Dam Safety Program wrote, “It is my
    understanding that there may be as many as 17 ash ponds contained
    by earthen filled “dams” in the TVA system that may meet or exceed
    the technical definition provided by the guidelines.” Yet in 1989, the
    Vice President of Power Engineering and Construction stated, “The
    potential for loss of life or significant property damage as a result of a
    failure at one of these facilities is minimal…Therefore, we can see no
    advantage to TVA in reassigning management control to the Dam
    Safety Program.”


Inspection 2008-12283-02                                                 Page 28
Office of the Inspector General                                  Inspection Report



•   In a 1988 draft memorandum, the Vice President of Power Engineering
    and Construction wrote, “Because of concerns about groundwater
    contamination, TVA is moving away from wet ash disposal techniques
    to dry stacking.”

•   In an undated memorandum, the Vice President of Fossil and Hydro
    Projects said for those dikes redefined as dams, “TVA will have to
    (1) perform additional stability analysis, (2) add instrumentation, …..,
    (3) calculate and document flooding criteria, (4) perform inspections at
    intervals no greater than 2 ½ years, and (5) prepare emergency
    notification procedures for each plant.”

•   In 1996, the TVA Manager of Fossil Engineering stated, “A previous
    internal agreement established that TVA does not consider the waste
    disposal area dikes hazardous as defined by this act. Therefore, we
    continue to manage them as pollution control facilities, not ‘dams.’…In
    general, we would expect these inspections to meet dam safety
    inspection requirements; however, should these dikes be reclassified
    as ‘dams,’ we would need to closely review our inspection procedures
    for compliance. Also, should these dikes be reclassified to ‘dams,’ we
    would probably need to reanalyze our dike stability and in many cases,
    need to instigate a drilling and testing program before performing this
    analysis…We believe it would be in TVA’s best interest to continue to
    treat the waste area dikes as pollution control facilities rather than as
    ‘dams.’”

Since the September 2008 OIG assessment of TVA’s Enterprise Risk
Management Program, TVA has hired additional risk management
personnel and restructured its program to, among other things, drive the
program further down into the organization by starting the risk assessment
process in the strategic business units. If TVA is able to do this
effectively, it will increase the likelihood that it will surface and deal with
issues such as the ash ponds that were known to various parties in TVA
but not identified as part of the Enterprise Risk Management process.

THE CULTURE AT TVA’S FOSSIL FUEL PLANTS IMPACTED ASH
MANAGEMENT

It’s the Culture
Our review disclosed attitudes and conditions at TVA’s fossil fuel plant that
emanate from a culture that impacted the way TVA handled coal ash. We
give some examples of that in this section that may seem anecdotal, but
they are consistent with our observations about the culture in other parts
of TVA as well. Over the last nine months, the OIG has conferred with the

Inspection 2008-12283-02                                                 Page 29
Office of the Inspector General                                                     Inspection Report


TVA Board and TVA management about what we perceive to be systemic
problems that have their genesis in the culture. While we recognize that
there is no one culture at TVA and instead there are subcultures that vary
from one organization to another within TVA, there are common themes
we find antithetical to a high performance organization. While the culture
at TVA’s fossil fuel plants is not the cause of the Kingston Spill, the
culture, in our view, is likely to be resistant to the kinds of reforms
necessary to avoid other safety failures.

Corporate culture is defined as the combined beliefs, values, ethics,
procedures, and atmosphere of an organization. The culture of an
organization is often expressed as “the way we do things around here”
and consists of largely unspoken values, norms and behaviors that
become the natural way of doing things.21 Over TVA’s 75-year history,
cultural traits have developed that if not identified and addressed can
undermine the best policies and procedures. The importance of
recognizing cultural limitations cannot be overemphasized.

This discussion of culture could be perceived to suggest that TVA
employees are guilty of bad behavior. Culture, however, is more a
product of management and leadership over successive generations than
a product of a bottom up phenomenon. Changing or renewing corporate
culture in order to achieve the organization’s strategy is considered one of
the major tasks of organization leadership and such change doesn’t
happen without focused leadership. We believe that TVA employees
come to work every day to do a job, a good job. If their culture (“how we
do things around here”) harms the organization, that is a leadership
problem.

TVA management is now implementing new policies and procedures to
change the way TVA has handled coal ash. History suggests that the very
best policies and procedures can be successfully resisted by a strong
legacy culture. For TVA to be successful in avoiding another Kingston
Spill, the culture must be accurately assessed, compliance with new
policies and procedures must be faithfully measured with appropriate
metrics, and employees must be educated to think differently about ash
management than they have over several generations.




21
     This definition of corporate culture came from the BNET.com Business Dictionary, Corporate
     Culture: Definition and additional sources from BNET. BNET’s Web site notes its Business
     Library provides unlimited access to one of the largest databases of white papers, Web casts,
     and case studies on the Web.
Inspection 2008-12283-02                                                                     Page 30
Office of the Inspector General                               Inspection Report


Corporate-wide safety programs fail when policies and procedures are not
driven from the top of the organization to the bottom of the organization.
That requires clear communication from leaders and crisp “zero-tolerance”
from managers below them. The audits and investigations conducted by
the OIG over the last ten years indicate repeat findings of noncompliance
with policies and procedures. The challenge to drive compliance
consistently through the organization is a difficult one that requires a new
approach.

As we state in our recommendations section of this report, we believe TVA
needs a dedicated cadre of professionals skilled in change management
focused solely on driving compliance throughout TVA. This group should
be tasked with identifying and addressing directly any underlying
resistance not just to the new policies and procedures for coal ash
management but resistance to TVA’s policies and procedures across the
enterprise. A change management task force of sorts should also:
(1) devise a comprehensive plan to drive compliance; (2) establish
appropriate metrics to measure accountability; and (3) review policies and
procedures for consistency and relevancy.

History suggests that if TVA merely creates new policies and procedures
to be implemented in the same fashion as before but within a new
organizational box, the culture will eventually erode the effort. While a
task force approach to compliance may seem drastic, the Kingston Spill
demonstrates how ineffective programs can be if a legacy culture is not
addressed.

Culture and Ash Management
During our review, we found that ash management at TVA reflected a
culture that ash was unimportant. This resulted in significant weaknesses
in ash management practices across TVA including: (1) a failure to
implement recommended corrective actions that could have possibly
prevented the Kingston Spill; (2) the lack of policies and procedures;
(3) poor maintenance; (4) the lack of specialized training; (5) multiple
organizational structure changes; (6) inadequate communication; and
(7) a failure to follow engineering best practices.

While the weaknesses we identified clearly demonstrate cultural issues,
interviews with current and former TVA employees lend further support to
our view that ash was seen as unimportant. We interviewed plant
personnel, engineering personnel, and management and heard several
comments indicative of a culture resistant to treating ash management as
much more than taking out the garbage. For example:


Inspection 2008-12283-02                                              Page 31
Office of the Inspector General                                                     Inspection Report



•      One member of management stated, “Ponds have always been the
       back end of the plant. It is the same way at other utilities,” indicating
       that ponds are not an area of primary focus for utilities.

•      A former member of management believed, “Being sent to Yard
       Operations is like being sent to Siberia,” suggesting the yards were not
       considered a place of high importance.

•      Another employee said, “The further away from the plant you got the
       less management seemed to care,” conveying the ponds got little
       attention because they were away from the plant and not directly
       related to power production.

•      A TVA engineer said TVA had always stacked ash higher at KIF so it
       must be okay. He went on to say that if something worked in the past,
       TVA will keep on doing it and that TVA had a cheap solution to ash
       storage by stacking higher so that is what they did.

•      After being questioned about a current ash disposal project by
       Marshall Miller, a TVA engineer was critical of Marshall Miller
       consultants and stated they were trying to turn a landfill into “rocket
       science.” This is clearly reflective of a culture resistant to a
       professional engineering standard of care.

TVA Lacked Policies and Procedures for Ash Management
When asked by the OIG, TVA personnel were unable to provide any
policies and procedures dealing with the storing, handling, and
maintaining of ash and ash facilities. TVA personnel said they follow the
state approved operations permit for each plant, but had no policies and
procedures regarding how to do so. Without policies and procedures, it is
unclear who is responsible for specific tasks, how to address certain
problems when they arise, and how to ensure proper communication
occurs. When discussed with the CEO, he agreed that without policies
and procedures needed actions often do not occur.

Ash Storage Facilities were Poorly Maintained
Through review of inspection results and visits to seven sites22 by Marshall
Miller, we found that reported maintenance issues were often not
addressed. TVA Engineering conducts annual inspections of each of
TVA’s ash storage areas. These inspections are documented in the
annual inspection report for each fossil plant. Our review of all such
22
     Marshall Miller visited and assessed conditions at the following seven sites: Bull Run Fossil
     Plant, Cumberland Fossil Plant, Johnsonville Fossil Plant, John Sevier Fossil Plant, Kingston
     Fossil Plant, Paradise Fossil Plant, and Widows Creek Fossil Plant.
Inspection 2008-12283-02                                                                      Page 32
Office of the Inspector General                                Inspection Report


available reports for the last five years for each of TVA’s plants found that
legacy problems existed at all of TVA’s fossil plants. Legacy problems are
problems documented in consecutive reports without being addressed by
TVA. We found the following legacy problems in reviewing the inspection
reports:

•   Erosion – which can cause dike instability because of loss of structural
    cover;

•   Seepage – which can cause internal dike erosion and dike instability;

•   Overgrown vegetation – which can make it difficult to conduct a
    thorough inspection and to identify suspect dike changes, such as
    cracks, bulging, and seepage outbreaks;

•   Sparse vegetation – which can allow erosion to occur and expand
    more rapidly;

•   Tree growth on dikes – which can mask seepage issues and weaken
    the structural integrity of the dike;

•   Standing water – which can cause the soil and ash to become
    saturated and weaken the dike; and

•   Piping issues – joint and seepage failures and displaced materials at
    outlet piping.

TVA Engineering reported these issues repeatedly, but few corrective
actions were taken. There were certain instances where corrective
actions created additional problems. For example, in one instance TVA
cut down trees to address a vegetation issue, but did not remove the
roots; as a result, depressions developed on the dikes.

In addition, Marshall Miller’s work at seven sites confirmed what we
found in reviewing the annual inspection reports. They noted general
maintenance issues at each facility visited. Legacy maintenance issues
identified by Marshall Miller include:

•   Heavily overgrown vegetation.

•   Trees on dikes.

•   Indications of six shallow depressions of varying size and depth in the
    western slope of the embankment at Johnsonville Fossil Plant (JOF).
Inspection 2008-12283-02                                               Page 33
Office of the Inspector General                                   Inspection Report


    Some of these depressions have been documented by TVA during its
    yearly inspections; however, it appears they were not addressed until
    very recently. Specifically, TVA’s inspection reports for the previous
    three-year period stated that initially one, then four, and finally six
    depressions were observed to be re-occurring on the western side of
    the embankment. While the condition worsened from year to year, no
    actions were taken to address the problem (Stantec has performed an
    investigation of the depressions and determined that no additional
    actions are needed at this time).

•   The presence of multiple uncontrolled seepage points or seepage
    outbreaks is one of the main problems at the JOF Active Ash
    Impoundment Area. These apparently have existed for many years.
    They have been documented by TVA representatives and/or their
    consultants in various inspection reports; however, no actions have
    been taken to resolve the conditions.

In our discussions with the Senior Vice President, Fossil Operations
Support, he concurred that maintenance has been a big problem in the
past. For example, he noted that it had been a common practice to mow
the facilities only twice a year, which made visual inspections difficult if not
impossible. He further noted that TVA is working to address this issue by
increasing the frequency of mowings, removing trees from dikes,
improving drainage, and other steps as needed to improve maintenance.

Ash Storage Inspectors at TVA Lacked Training
Through interviews conducted at fossil plants, we found that there is no
formalized training for the personnel who inspect the dikes. The daily
visual inspections are generally conducted by plant personnel and annual
inspections are conducted by engineering personnel with no specialized
training for dike inspections. Management concurred that no specialized
training for inspectors of ash pond dikes had been provided. In our
opinion, standardized training would result in several significant benefits,
such as equipping inspectors to:

•   Recognize maintenance issues early;
•   Properly assess the significance of issues identified;
•   Identify changing conditions; and
•   Properly communicate issues identified.

Organizational Changes Hampered Accountability
Through the years the management of the ash ponds has undergone
significant changes. In 1999, Yard Operations, which had responsibility
for the ash ponds, was moved from the plants' control to the Heavy

Inspection 2008-12283-02                                                  Page 34
Office of the Inspector General                               Inspection Report


Equipment Division (HED). The plants had numerous efficiency issues,
and management did not believe the plants could address those issues as
well as the problems that existed with Yard Operations and the ash ponds.

In 2006, TVA’s CEO made the decision to move the ash pond
management back under the control of the plants. However, the
CEO said that he had concerns about accountability because of all the
organizational changes that occurred in this area over the years.
According to the COO, TVA recognized this problem and has reorganized
the ash management function to, among other things, promote
accountability. Prior to the spill in 2008, Combustion By-Products moved
from the Fossil Operations Region 2 group to the Operations Support
group.

Communication Among Organizations was Inadequate
Through interviews and document reviews, we found that fragmented
organizational responsibilities for ash management created silos that
contributed to inadequate communication. One individual stated plant
management was not informed of problems with the ash ponds. The
problem was further demonstrated by a TDEC representative who stated,
“It seemed the plant management, the environment group, and other
groups at TVA were not always communicating.” The TDEC
representative stated that his questions often had to be directed to
different groups. He heard from TVA personnel that they could not get
management to recognize the urgency of ash management at the plants.
Another communication issue was found in a plant's summary of the FY
2008 Inspection Report. An engineer stated, “An internal dredge cell was
constructed inside of the bottom ash pond without consultation or input
from Engineering. It was in such poor condition that Engineering
recommended against its use until modifications were made.
(Subsequent to the inspection, modifications were made and the dredge
cell was used successfully.)” The fact that modifications were made to an
ash facility without obtaining input from engineering demonstrates a lack
of communication, as well as a lack of appreciation of the importance of
having professional engineering input into dike modifications.

During a site visit to one of the plants, Marshall Miller identified
uncompacted and/or poorly compacted gravel that had been placed
around the perimeter of the fly ash impoundment. In Marshall Miller’s
opinion, the condition of the stone layer indicated there had not been any
engineering or field oversight/quality control to ensure it was properly
placed and compacted. Since the proper base was not established and
the gravel was poorly compacted, it would not achieve its intended
purpose and was a waste of TVA money. TVA management

Inspection 2008-12283-02                                              Page 35
Office of the Inspector General                                 Inspection Report


acknowledged that they acted quickly to address complaints about ruts
and holes due to increased traffic in the area and did not obtain
engineering input.

TVA Did Not Follow Engineering Best Practices
We found that TVA did not follow engineering best practices with respect
to ash ponds. According to Marshall Miller, dikes such as the failed one at
Kingston that contain hydraulically placed materials with the potential to
impound water should be treated as dams. Compared to a dam
constructed across a valley or hollow, expansive dike systems for coal ash
storage can present greater uncertainties relative to the native foundation,
hydraulically placed materials, and dike/embankment materials. Marshall
Miller observed that treating ash storage facilities as dams would have
significant implications to TVA’s (1) standards for designing the facilities,
(2) construction documentation and inspection, and (3) instrumentation
and monitoring activities (for more detailed information see Appendix C).

Moreover, during the course of our review, we discovered a TVA design
guide for performing static slope stability analyses that was last updated in
June of 1981. The design guide covered key areas such as: (1) field and
laboratory testing, (2) evaluating soil characteristics, (3) facility loading
characteristics and required factors of safety, (4) methods of analysis, and
(5) slope stabilization techniques. Our consultant, Marshall Miller,
reviewed this design guide and commented that it represented good
engineering and design standard as of 1981. Unfortunately, TVA has not
updated the design guide to reflect engineering and design standards as
they evolved since 1981.

In practice, we saw this failure to follow engineering best practices
manifest itself in several ways. For example:

•   TVA did not create “as-built” or “record” drawings, which would
    document construction of the facilities as they were built including any
    deviations that might occur between actual construction and the
    engineered design, permit, or construction drawings. According to
    TVA engineers, this has been a problem but recent improvements
    have been made in regards to placing "as-built" drawings on the TVA
    drawing system.

•   TVA did not always have an engineer on-site to perform Construction
    Quality Assurance/Construction Quality Control (CQA/CQC) while
    modifications or construction of ash storage facilities occurred. The
    CQA/CQC function helps to ensure that the facilities are designed to
    current engineering, agency, and regulatory standards and remain in
    accordance with good engineering practice. Furthermore, this practice
Inspection 2008-12283-02                                                Page 36
Office of the Inspector General                                Inspection Report


    ensures that these facilities are constructed in accordance with
    approved engineering design plans, and that the as-constructed
    conditions are properly documented for future reference.

•   TVA did not require construction drawings to be stamped by the
    Professional Engineer (P.E.) of record. A P.E. stamped drawing would
    identify the design engineer-of-record and their firm, which would
    reduce the risk of using an incorrect version of a drawing, provide an
    appropriate technical contact for resolving ambiguities in design and
    construction documents, performance issues, and other problems that
    might arise, and define the primary entities that are accountable for the
    design. Management stated they will evaluate the need to have
    construction drawings stamped in the future.

As we point out above, these conditions indicate a pervasive legacy
culture that impacted coal ash management. A new approach as
suggested in our recommendations section is warranted.

TVA HAS RECENTLY ACTED TO ADDRESS CERTAIN ASH
MANAGEMENT WEAKNESSES
As we have previously noted, since the Kingston Spill TVA management
has begun to reassess its ash management program and has taken
several actions to improve ash management across the agency. These
actions include (1) organizational changes to address management and
accountability issues, (2) changes designed to change the corporate
culture which had deemphasized the importance of ash management, and
(3) steps to assess ash storage facilities against dam safety guidelines
with the goal of complying with dam safety guidelines where possible.
Actions taken to-date include:

•   TVA recognized there are too many business units involved in ash
    pond design, maintenance, modification, and operations and has taken
    steps to improve the organizational structure. On April 24, 2009, the
    COO announced that TVA will be establishing a new Coal Combustion
    Products Management Division (CCPMD). According to the COO,
    “This will allow us to bundle all coal-combustion products, gypsum-
    management activities and other ponds into one group to develop and
    implement a consistent fleet strategy for these operations.” The Senior
    Vice President (SVP) of Fossil Operations Support said TVA has
    reorganized the fossil division for better management. He said one
    person has been designated Vice President of Engineering and will be
    responsible for the contractor assessing and designing changes for all
    TVA ash facilities, all the capital projects to convert the wet ponds to
Inspection 2008-12283-02                                               Page 37
Office of the Inspector General                                Inspection Report


    dry stacks (including gypsum and ash), closure of the ponds, new
    bottom ash ponds, and issues identified during inspections. He further
    explained that another position has been given responsibility for the
    day-to-day operations, by-product sales, maintenance, and assigning
    dedicated supervisors for the daily operation of the ponds. The
    maintenance program will also include any ponds which have the
    potential for an environmental release. The COO stated the
    organizational changes were made to enhance accountability,
    transparency, and communication.

•   TVA also recognized that the mindset and culture regarding ash ponds
    needed changing and more emphasis needs to be placed on ash
    management. For example, the SVP of Fossil Operations Support was
    recently given the authority to shut a plant down if he finds significant
    issues with ash management. In addition, the organizational changes
    to enhance the authority and accountability of those responsible for
    ash management described above, along with the memory of the KIF
    spill, underscores the importance of the proper management of ash at
    TVA.

•   In addition, TVA has moved toward managing the ash ponds under
    dam safety engineering, construction, and operation, inspection and
    maintenance guidelines. According to the COO, TVA is now taking
    steps to implement a program for ash facility management that is in
    compliance with dam safety guidelines. He went on to say while TVA
    plans for ash storage facilities to meet dam safety requirements, they
    acknowledge that some facilities may not be able to meet all the
    requirements because of their original designs and construction. TVA
    hired Stantec to assess the condition of its ash ponds and to help
    restructure ash management. For example, TVA does not believe it
    can meet the recent seismic requirements for the dam safety
    standards at certain facilities. In addition, the Stantec assessments
    may reveal that certain other dam safety standards are unachievable.
    Stantec stated that TVA had not previously followed the dam safety
    guidelines for their ash ponds because Tennessee regulators
    exempted TVA, Alabama does not have clear dam safety guidelines,
    and it was unclear to Stantec if TVA was granted an exception to the
    Kentucky dam safety guidelines.




Inspection 2008-12283-02                                               Page 38
Office of the Inspector General                                Inspection Report



                            RECOMMENDATIONS
In addition to the management actions noted above, we recommend the
CEO, in consultation with the Board of Directors, where appropriate:

•   Commission a dedicated cadre of professionals skilled in change
    management focused solely on driving compliance throughout TVA
    and measuring positive changes in the culture that effects ash
    management and other TVA programs.

•   Assess the culture of the fossil fuels group to determine what changes
    need to be made, if any, to ensure the support for sound policies and
    procedures related to ash management.

•   Assess the management practices of TVA for ash management to
    determine whether those practices contributed to the failure of the dike
    at Kingston.

•   Complete the assessments of TVA ash storage facilities and determine
    which ones are at risk of failure. The determination should be, as
    suggested by Marshall Miller, based on whether any of the four
    conditions contributing to the failure at Kingston exist sufficiently to
    pose a significant risk of failure. The determination should not be
    limited to just looking for the existence of the combination of all four
    contributing conditions found at Kingston.

•   Develop policies and procedures for the storing, handling, and
    maintaining of ash and ash disposal facilities.

•   Continue the efforts to drive the Enterprise Risk Management Program
    further down into the organization to increase the future likelihood that
    known risks will be identified and addressed.




Inspection 2008-12283-02                                               Page 39
                                                                 APPENDIX A
                                                                  Page 1 of 1



               OBJECTIVE, SCOPE, AND METHODOLOGY

The objectives of our overall review are to determine (1) the causes of the
spill, (2) the adequacy of TVA's response to the spill, and (3) what TVA
can do to assure the public that a similar spill will not occur again at this or
any other TVA plant. The purpose of this inspection is to (1) provide an
independent peer review of AECOM’s root cause analysis and (2) review
TVA’s ash management for weaknesses. To achieve the objectives of this
report, we:

•   Hired Marshall Miller & Associates (Marshall Miller) to perform an
    independent peer review of TVA’s root cause analysis and provide
    other observations about coal ash management at TVA. Marshall
    Miller has expertise in coal ash and other waste materials, containment
    design for hydraulically placed or sluiced ash and mine tailings,
    earthen and mine waste dams and, more generally, materials science
    and geotechnical engineering. Marshall Miller’s peer review of
    AECOM’s root cause analysis is presented in the attached Appendix B,
    and its other observations on coal ash management at TVA are in
    Appendix C.

•   Conducted interviews with selected TVA management, engineering
    personnel, plant personnel, and consultants.

•   Obtained and reviewed the last five years of available annual
    inspection reports of TVA waste disposal facilities to identify legacy
    issues at the fossil plants.

•   Performed walkdowns, along with Marshall Miller, of seven fossil sites.

•   Obtained and reviewed documentation pertaining to the ash storage at
    TVA (e.g., memorandums, quarterly inspection reports, etc.)

•   Attended key TVA meetings, which included amongst others TVA's
    consultants.

This review was conducted in accordance with the Quality Standards for
Inspections.
APPENDIX B
Page 1 of 25
APPENDIX B
Page 2 of 25
APPENDIX B
Page 3 of 25
APPENDIX B
Page 4 of 25
APPENDIX B
Page 5 of 25
APPENDIX B
Page 6 of 25
APPENDIX B
Page 7 of 25
APPENDIX B
Page 8 of 25
APPENDIX B
Page 9 of 25
APPENDIX B
Page 10 of 25
APPENDIX B
Page 11 of 25
APPENDIX B
Page 12 of 25
APPENDIX B
Page 13 of 25
APPENDIX B
Page 14 of 25
APPENDIX B
Page 15 of 25
APPENDIX B
Page 16 of 25
APPENDIX B
Page 17 of 25
APPENDIX B
Page 18 of 25
APPENDIX B
Page 19 of 25
APPENDIX B
Page 20 of 25
APPENDIX B
Page 21 of 25
APPENDIX B
Page 22 of 25
APPENDIX B
Page 23 of 25
APPENDIX B
Page 24 of 25
APPENDIX B
Page 25 of 25
APPENDIX C
Page 1 of 36
APPENDIX C
Page 2 of 36
APPENDIX C
Page 3 of 36
APPENDIX C
Page 4 of 36
APPENDIX C
Page 5 of 36
APPENDIX C
Page 6 of 36
APPENDIX C
Page 7 of 36
APPENDIX C
Page 8 of 36
APPENDIX C
Page 9 of 36
APPENDIX C
Page 10 of 36
APPENDIX C
Page 11 of 36
APPENDIX C
Page 12 of 36
APPENDIX C
Page 13 of 36
APPENDIX C
Page 14 of 36
APPENDIX C
Page 15 of 36
APPENDIX C
Page 16 of 36
APPENDIX C
Page 17 of 36
APPENDIX C
Page 18 of 36
APPENDIX C
Page 19 of 36
APPENDIX C
Page 20 of 36
APPENDIX C
Page 21 of 36
APPENDIX C
Page 22 of 36
APPENDIX C
Page 23 of 36
APPENDIX C
Page 24 of 36
APPENDIX C
Page 25 of 36
APPENDIX C
Page 26 of 36
APPENDIX C
Page 27 of 36
APPENDIX C
Page 28 of 36
APPENDIX C
Page 29 of 36
APPENDIX C
Page 30 of 36
APPENDIX C
Page 31 of 36
APPENDIX C
Page 32 of 36
APPENDIX C
Page 33 of 36
APPENDIX C
Page 34 of 36
APPENDIX C
Page 35 of 36
APPENDIX C
Page 36 of 36
APPENDIX D
 Page 1 of 1
APPENDIX E
 Page 1 of 3
APPENDIX E
 Page 2 of 3
APPENDIX E
 Page 3 of 3
